No. 19-1031
IN THE

$>upreme QI:ourt of tbe mlniteb $>1ates
ERIN CAPRON; JEFFREY PENEDO; CULTURAL CARE,
INC., d/b/a CULTURAL CARE Au PAIR,

Petitioners,

V.

OFFICE OF THE ATTORNEY GENERAL OF THE
COMMONWEALTH OF MASSACHUSETTS;
MAURA T. HEALEY, in her capacity as Attorney
General of the Commonwealth of Massachusetts,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. l(h), I hereby certify that the Brief of

Amici Curiae Host Families in Support of Petitioners in Capron v. Office of the
Attorney General of the Commonwealth of Massachusetts, No. 19-1031, complies with
the word limitations, as it contains 5,664 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: April 16, 2020

